OIG Audit Report GR-70-06-011

Use of Equitable Sharing Assets by the Police Department of the Amtrak Police Department

Audit Report GR-70-06-011


May 2006
Office of the Inspector General


Executive Summary





The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, completed an audit of the use of DOJ equitable sharing assets by the Amtrak Police Department (APD). We selected the APD for audit based on reports provided by the DOJ Criminal Division, Asset Forfeiture and Money Laundering Section (AFMLS), which detailed recipients of equitable sharing proceeds from fiscal years (FY) 2003 through 2005. The audit covered the period of October 1, 2001, through September 30, 2005, during which the APD received $3,991,804 in DOJ equitable sharing cash for participating in investigations leading to forfeiture. 
 We reviewed the APD's accountability and use of equitable sharing assets and found that the APD did not fully comply with DOJ equitable sharing guidelines. As a result of the weaknesses identified, we question $3,020 of federal equitable sharing cash received by the APD during the audit period.1 Specifically, we found that the APD: 

 failed to submit a new Federal Sharing Agreement after a change in senior administration; 
 understated the police department budget by $1,844,626 in its 2002 Federal Annual Certification Report submission to the AFMLS;  
  used $3,020 of equitable sharing cash for unsupported travel expenditures; and  
  failed to track equitable sharing receipts in the form of two checks totaling $37,822 disbursed by the U.S. Marshals Service to the APD. 

 Our audit results are discussed in greater detail in the Findings and Recommendations section of the report. The audit objectives, scope, and methodology appear in Appendix I. 
 We discussed the results of our audit with APD officials and have included their comments in the report, as applicable. In addition, we requested a response to our draft audit report from the APD and the Criminal Division. The APD response is appended to this audit report. The Criminal Division declined to comment on the report. 



Footnote

The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for a definition of questioned costs.